No. 19-103

 

 

IN THE

Supreme Court of the United States

STRIKEFORCE TECHNOLOGIES, INC.,

Petitioner,
Vv.
SECUREAUTH CORPORATION,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
1,426 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 30, 2019.

 

Colin Casey Hogdn
Wilson-Epes Printing Co., Inc.
